BUSINESS CREDIT CARD AGREEMENT
This Business Credit Card Agreement ("Agreement") includes this document, any letter, card carrier, card insert,
addendums, any other document accompanying this Agreement, any application that you signed or submitted to
the Credit Union, and any notification of changes to this Agreement. The words "you" and "your" mean each
person, each business or organization ("organization"), and each officer or owner of the organization who agrees
to be bound by this Agreement as set forth below. The words we, our, us and "Credit Union" means the Credit
Union whose name appears on this Agreement or anyone to whom the Credit Union transfers this Agreement.
The word "card" means the MasterCard business credit card you receive from the Credit Union and any
duplicates, renewals, or substitutions the Credit Union issues to you. The word "account" means the credit card
line of credit account the Credit Union approves for you that is subject to this Agreement.
1. PERSONS BOUND. By signing (in ink, electronically or digitally) any business loan application stating your
agreement to be bound by this Agreement or by using the card or account we issue to you, or by authorizing an
employee to use the card or account we issue to you, you agree to be bound by the terms of this Agreement. If
you are an officer or owner obtaining an account for your organization, you agree to the terms of this Agreement
in your personal capacity as well as your capacity as an officer or owner authorized to bind the organization to this
Agreement.
2. USING YOUR ACCOUNT. If you are approved for an account, the Credit Union will establish a line of credit
for you. The amount of your credit limit is set forth on the Addendum accompanying this Agreement. You agree
that your credit limit is the maximum amount (purchases, cash advances, finance charges, plus "other charges")
that you will have outstanding on your account at any time. If you exceed your credit limit, you must pay the
amount you are over your limit plus any fees and unpaid finance charges before payments will begin to restore
your credit limit. In addition, a fee may be imposed for exceeding your credit limit. You may request an increase in
your credit limit only by a method acceptable to the Credit Union. The Credit Union may increase or decrease
your credit limit, refuse to make an advance and/or terminate your account at any time for any reason not
prohibited by law. If you are permitted to obtain cash advances on your account, we may from time to time issue
convenience checks to you that may be drawn on your account. Convenience checks may not be used to make a
payment on your account balance. If you use a convenience check it will be posted to your account as a cash
advance. We reserve the right to refuse to pay a convenience check drawn on your account for any reason and
such refusal shall not constitute wrongful dishonor.
You may request that we stop the payment of a convenience check drawn on your account. You agree to pay any
fee imposed to stop a payment on a convenience check issued on your account. You may make a stop payment
request orally, if permitted, or in writing. Your request must be made with sufficient time in advance of the
presentment of the check for payment to give us a reasonable opportunity to act on your request. In addition, your
request must accurately describe the check including the exact account number, the payee, any check number
that may be applicable, and the exact amount of the check. You may make a stop payment request orally but
such a request will expire after 14 days unless you confirm your request in writing within that time. Written stop
payment orders are effective only for six (6) months and may be renewed for additional six month periods by
requesting in writing that the stop payment order be renewed. We are not required to notify you when a stop
payment order expires. If we re-credit your account after paying a check or draft over a valid and timely stop
payment order, you agree to sign a statement describing the dispute with the payee, to assign to us all of your
rights against the payee or other holders of the check or draft and to assist us in any legal action. You agree to
indemnify and hold us harmless from all costs and expenses, including attorney's fees, damages, or claims,
related to our honoring your stop payment request or in failing to stop payment of an item as a result of incorrect
information provided to us or the giving of inadequate time to act upon a stop payment request.
3. STATEMENT OF BUSINESS PURPOSE. You agree that you have represented to us that you are obtaining
your account for business purposes that all purchases, cash advances, balance transfers, use of any
convenience checks issued on your account and any other use of your account will only be for a business
purpose. You agree that you will never use your account for any personal, household or family purposes.
4. USING YOUR CARD. You may use your card to make purchases from merchants and others who accept
your card. The Credit Union is not responsible for the refusal of any merchant or financial institution to honor your
card. If you wish to pay for goods or services over the Internet, you may be required to provide card number
© CUNA MUTUAL GROUP, 2008, 11, ALL RIGHTS RESERVED

YPAAF0 (BXCM12)-e

security information before you will be permitted to complete the transaction. In addition, the Credit Union may
permit you to obtain cash advances from the Credit Union, from other financial institutions that accept your card,
and from some automated teller machines (ATMs). (Not all ATMs may accept your card.) If the Credit Union
authorizes ATM transactions with your card, it will issue you a personal identification number (PIN). To obtain
cash advances from an ATM, you must use the PIN that is issued to you for use with your card. You agree that
you will not use your card for any transaction that is illegal under applicable federal, state or local law. Even if you
use your card for an illegal transaction, you will be responsible for all amounts and charges incurred in connection
with the transaction. If you are permitted to obtain cash advances on your account, you may also use your card to
purchase instruments and engage in transactions that we consider the equivalent of cash. Such transactions will
be posted to your account as a cash advance and include, but are not limited to, wire transfers, money orders,
bets, lottery tickets, and casino gaming chips as applicable. This paragraph shall not be interpreted as permitting
or authorizing any transaction that is illegal.
5. RESPONSIBILITY. You agree to pay all charges (purchases and cash advances, balance transfers, use of
convenience checks and any other charge) to your account that are made by you or anyone whom you authorize
to use your account. You also agree to pay all finance charges and other charges added to your account under
the terms of this Agreement or another agreement you made with the Credit Union. If there is more than one
person bound to this Agreement, each will be individually and jointly responsible for paying all amounts owed
under this Agreement. If you are an organization, the officer or owner that obtained the account for the
organization is also personally obligated for all charges made under the account. This means that the
Credit Union can require any one of you to individually repay the entire amount owed under this Agreement. In
addition each person bound under this Agreement as well as any authorized user may make purchases
individually and if cash advances are permitted for your account, may obtain cash advances individually.
6. INTEREST RATE. The Interest Rates applicable to purchases, cash advances, and balance transfers are
disclosed on the Addendum that accompanies this Agreement. Any penalty rate that may be imposed is also
disclosed on the Addendum. These rates may be either fixed or variable as disclosed in the Addendum
accompanying this Agreement. If the rate for your account is fixed, the rate charged on purchases, cash
advances, balance transfers, and any penalty rate will be fixed and will not vary from month to month unless we
notify you in advance that the rate will change. If the rate for your account is variable, as indicated on the
accompanying Addendum, the rate charged on purchases, cash advances, balance transfers and any penalty
rate will vary periodically as disclosed in the Addendum accompanying this Agreement. The initial rate on your
account for certain types of transactions may be an introductory discounted rate (Introductory Rate) that is lower
than the rate that would ordinarily apply for that type of transaction. If an Introductory Rate applies to your
account, the rates and the period of time it will be effective is shown on the Addendum accompanying this
Agreement. After the Introductory Rate period expires, the Interest Rate will automatically increase to the rates
that would ordinarily apply for that type of transaction based on the terms of this Agreement.
7. FINANCE CHARGE CALCULATION METHOD FOR PURCHASES. New purchases posted to your account
during a billing cycle will not incur a finance charge for that billing cycle. Finance charges begin to accrue on
those purchases from the first day of the next billing cycle, unless you paid the entire New Balance on the
previous cycle’s billing statement by the Payment Due Date of that statement. To avoid an additional finance
charge on the balance of purchases, you must pay the entire New Balance on the billing statement by the
Payment Due Date of that statement. The finance charge is calculated separately for purchases and cash
advances. For purchases, the finance charge is computed by applying the periodic rate to the average daily
balance of purchases. To get the average daily balance of purchases, we take the beginning outstanding balance
of purchases each day and subtract any payments and/or credits that we apply to the purchase balance. (We do
not add in any purchases posted during the billing cycle.) This gives us the daily balance of purchases. Then, we
add all the daily balances of purchases for the billing cycle together and divide the total by the number of days in
the billing cycle. This gives us the average daily balance of purchases.
8. FINANCE CHARGE CALCULATION METHOD FOR CASH ADVANCES. A finance charge begins to accrue
on cash advances from the date you get the cash advance or from the first day of the billing cycle in which the
cash advance is posted to your account, whichever is later. To avoid an additional finance charge on the balance
of cash advances, you must pay the entire New Balance on the billing statement by the Payment Due Date of that
statement. For cash advances, the finance charge is computed by applying the periodic rate to the average daily
balance of cash advances. To get the average daily balance of cash advances, we take the beginning
outstanding balance of cash advances each day, add in any new cash advances, and subtract any payments
and/or credits that we apply to the cash advance balance. This gives us the daily balance of cash advances.
Then, we add all the daily balances of cash advances for the billing cycle together and divide the total by the
number of days in the billing cycle. This gives us the average daily balance of cash advances.

2

YPAAF0 (BXCM12)-e

9. OTHER CHARGES. In addition to the Interest Rate, additional fees may be imposed on your account. The
amount and description of these fees are disclosed on the Addendum accompanying this Agreement.
10. PAYMENTS. Each month you must pay at least the minimum payment shown on your statement by the date
specified on the statement or no later than twenty-five (25) days from the statement closing date, whichever is
later. If your statement says the payment is "Now Due," your payment is due no later than twenty-five (25) days
from the statement closing date. All payments must be made in U.S. dollars and if made by a negotiable
instrument such as a check or money order, must be in a form acceptable to us and drawn on a U.S. financial
institution. You may pay more frequently, pay more than the minimum payment or pay the Total New Balance in
full. If you make extra or larger payments, you are still required to make at least the minimum payment each
month your account has a balance (other than a credit balance). The minimum payment for your account is
shown on the Addendum accompanying this Agreement. In addition to the minimum payment, you must also pay,
by the date specified above, the amount of any prior minimum payment(s) that you have not made, all outstanding
unpaid fees and charges, and any amount you are over your credit limit. The Credit Union also has the right to
demand immediate payment of any amount by which you are over your credit limit. Subject to applicable law, your
payments may be applied to what you owe to the Credit Union in any manner the Credit Union chooses. We may
accept checks marked "payment in full" or with words of similar effect without losing any of our rights to collect the
full balance of your account with us.
11. FOREIGN TRANSACTIONS. If you make a purchase or obtain a cash advance in a foreign currency, the
transaction will be debited from your account in U.S. dollars. MasterCard will convert the transaction into U.S.
dollars depending on whether you complete the transaction with a MasterCard or if the transaction is processed
by a network operated or affiliated with MasterCard. For transactions processed through MasterCard, the
exchange rate used to convert foreign currency transactions to U.S. dollars is either a government-mandated
exchange rate or a wholesale exchange rate that is selected by MasterCard. The rate MasterCard uses for a
particular transaction is the rate MasterCard selects for the applicable currency on the day the transaction is
processed. The exchange rate used to convert the transaction may differ from the rate MasterCard receives and
may differ from the rate applicable on the date the transaction occurred or was posted to your account.
12. COLLECTION COSTS. You agree to pay all costs of collecting the amount you owe under this Agreement,
including court costs and reasonable attorney's fee, as permitted by applicable state law.
13. SECURITY INTEREST. If you give the Credit Union a specific pledge of shares by signing a separate pledge
of shares, your pledged shares will secure your account. You may not withdraw amounts that have been
specifically pledged to secure your account until the Credit Union agrees to release all or part of the pledged
amount. In addition, your account is secured by all other shares you have in any individual or joint account with
the Credit Union, except for shares in an Individual Retirement account or in any other account that would lose
special tax treatment under state or federal law if given as security. These other shares may be withdrawn unless
you are in default under this Agreement. You authorize the Credit Union to apply the balance in your individual or
joint share accounts to pay any amounts due on your account if you should default. Collateral securing other
loans you have with the Credit Union may also secure this loan, except that a dwelling will never be considered as
security for this account, notwithstanding anything to the contrary in any other agreement.
14. DEFAULT. You will be in default if you fail to make any minimum payment or other required payment by the
date that it is due. You will be in default if you; a) break any promise you make under this Agreement; b) exceed
your credit limit; c) are a natural person, if you die; d) are an organization, you cease to exist; e) are an
organization, you change your legal structure so that the person obligating the organization to this Agreement is
no longer authorized to bind it to legal agreements; f) file for bankruptcy or become insolvent; g) make any false
or misleading statements in any credit application or credit update; or h) if something happens that the Credit
Union believes may substantially reduce your ability to repay what you owe. When you are in default, the Credit
Union has the right to demand immediate payment of your full account balance without giving you notice. If
immediate payment is demanded, you agree to continue paying finance charges, at the applicable interest rate,
until what you owe has been paid, and any shares that were given as security for your account may be applied
towards what you owe.
15. CHANGING OR TERMINATING YOUR ACCOUNT. The Credit Union may change the terms of this
Agreement and any attached Addendum from time to time. Notice of any change will be given in accordance with
applicable law. If permitted by law, the change will apply to your existing account balance as well as to future
transactions.
Either you or the Credit Union may terminate this Agreement at any time, but termination by you or the Credit
Union will not affect your obligation to pay the account balance plus any finance and other charges you owe under
3

YPAAF0 (BXCM12)-e

this Agreement. You are also responsible for all transactions made to your account after termination, unless the
transactions were unauthorized.
The card or cards you receive remain the property of the Credit Union and you must recover and surrender to the
Credit Union all cards upon request or upon termination of this Agreement whether by you or the credit union. The
Credit Union has the right to require you to pay your full account balance at any time after your account is
terminated, whether it is terminated by you or the Credit Union.
16. CHANGING OR TERMINATING AUTHORIZED USERS. Upon your request, we may issue additional cards
for authorized users that you designate. You must notify us in writing of any termination of an authorized user's
right to access your account. Your letter must include the name of the authorized user and your account number
and/or any subaccount number issued to the authorized user along with the authorized user's card and any
convenience or other access checks issued to the authorized user. If you cannot return the authorized user's card
or access checks and if you request your account to be closed, we will close your account and you may apply for
a new account.
17. LIABILITY FOR UNAUTHORIZED USE-LOST/STOLEN CARD NOTIFICATION. You may be liable for the
unauthorized use of your card or account. Notify us immediately, in writing or by telephone at the address or
phone number included with this Agreement, if your card is lost, stolen or you suspect there has been
unauthorized use of your card or account. After we receive your notification, you will not be liable for any further
unauthorized use of your card or account.
If you are an organization with 10 or more employees and we have issued 10 or more cards on your account for
use by your employees, you will be liable for all unauthorized use of your cards or account before notification
to us unless your liability may be limited by MasterCard liability limitation rules as set forth below. Otherwise, you
will be liable for up to $50 for the unauthorized use of your card or account before notification to us unless your
liability is further limited by MasterCard liability limitation rules as set forth below. Unauthorized use does not
include use of a card by an authorized user in an unauthorized manner.
If your card is a MasterCard, you may not be liable for any unauthorized purchase transaction if you exercise
reasonable care in safeguarding your card from risk of loss or theft, have not reported two or more incidents of
unauthorized use in the last twelve (12) months, and if your account is in good standing.
18. CREDIT REVIEW AND RELEASE OF INFORMATION. You authorize the Credit Union to investigate your
credit standing when opening or reviewing your account. You authorize the Credit Union to disclose information
regarding your account to credit bureaus and creditors who inquire about your credit standing. If your account is
eligible for emergency cash and/or emergency card replacement services, and you request such services, you
agree that we may provide personal information about you and your account that is necessary to provide you with
the requested service(s).
19. RETURNS AND ADJUSTMENTS. Merchants and others who honor your card may give credit for returns or
adjustments, and they will do so by sending the Credit Union a credit slip which will be posted to your account. If
your credits and payments exceed what you owe the Credit Union, the amount will be applied against future
purchases and cash advances. If the credit balance amount is $1 or more, it will be refunded upon your written
request or automatically after six (6) months.
20. ADDITIONAL BENEFITS/CARD ENHANCEMENTS. The Credit Union may from time to time offer additional
services to your account, such as travel accident insurance or a liability waiver program, at no additional cost to
you. You understand that the Credit Union is not obligated to offer such services and may withdraw or change
them at any time.
21. EFFECT OF AGREEMENT. This Agreement is the contract which applies to all transactions on your account
even though the sales, cash advances, credit or other slips you sign or receive may contain different terms.
22. NO WAIVER. The Credit Union can delay enforcing any of its rights any number of times without losing them.
23. STATEMENTS AND NOTICES. Unless separate subaccounts have been set up under your account for
authorized users, statements and notices will be mailed to you at the appropriate address you have given the
Credit Union. You agree to notify us at least 10 days in advance of any change in address. Notice sent to any one
person bound under this Agreement will be considered notice to all. If we have agreed to send statements for
subaccounts under your account that have been issued to authorized users, we will send statements to the
appropriate address you have provided for that authorized user. You agree to notify us at least 10 days in
4

YPAAF0 (BXCM12)-e

advance of any change in address for an authorized user. You are responsible for payment of all amounts shown
on a statement delivered to an authorized user.
24. NOTIFICATION OF CHANGE IN LEGAL STRUCTURE, OFFICERS OR OWNERS. If you are an
organization you agree to notify us within 10 days of any change in your legal structure or any change in your
officers or owners.
25. SEVERABILITY AND FINAL EXPRESSION. This Agreement is the final expression of the terms and
conditions of your account. This written Agreement may not be contradicted by evidence of any alleged oral
agreement. Should any part of this Agreement be found to be invalid or unenforceable, all other parts of this
Agreement shall remain in effect and fully enforceable to the fullest extent possible under this Agreement.
26. GOVERNING LAW. This Agreement is governed by the laws of the state of Pennsylvania.
27. NOTIFICATION INFORMATION FOR REPORTING LOST, STOLEN AND UNAUTHORIZED USE OF
CARD. Notify us at once if your card has been lost or stolen or if you suspect that your card is being used without
your permission at the following:
(215) 969-0777

24 Hours per Day/Seven (7) Days a Week

Or write to:
American Heritage Federal Credit Union
2060 Red Lion Road
Philadelphia, PA 19115

5

YPAAF0 (BXCM12)-e

